                   The Oversight Board Has Achieved
                 Much of Its Original Intent, but There Are
                 Opportunities for Increased Effectiveness

                                 September 2004

                       Reference Number: 2004-10-193




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 30, 2004



      MEMORANDUM FOR CHAIRPERSON, INTERNAL REVENUE SERVICE OVERSIGHT
                     BOARD


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Oversight Board Has Achieved Much of
                                    Its Original Intent, but There Are Opportunities for Increased
                                    Effectiveness (Audit # 200310036)


      This report presents the results of our review to evaluate the Internal Revenue Service
      (IRS) Oversight Board’s effectiveness in fulfilling its responsibilities as required by the
      IRS Restructuring and Reform Act of 1998 (RRA 98).1 The RRA 98 provides the
      Treasury Inspector General for Tax Administration (TIGTA) the authority to conduct
      audits and investigations of the IRS Oversight Board. This audit was conducted as part
      of our Fiscal Year (FY) 2004 Annual Audit Plan.
      In summary, many stakeholders indicate the Oversight Board has improved IRS
      governance in line with the intent of the RRA 98; however, some stakeholders were
      concerned that the same issues are brought to the Board’s attention each year with no
      apparent action taken for resolution. A strategy for identifying, prioritizing, and
      intervening on key issues is needed. Moreover, in line with the best practices of
      corporate boards, the Board needs a process to perform annual self-assessments
      which would include assessing and communicating its impact on tax administration.
      Some IRS officials expressed concerns about duplicate oversight and the potential for
      conflicts of interest. While we believe there are sufficient controls to minimize the
      potential for conflicts of interest, there could be a significant benefit to increased
      coordination between the Board and other IRS oversight bodies to avoid duplicate or
      excessive requests for information.



      1
       Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                       2

To ensure the budget adequately supports the IRS strategic priorities, the Board must
approve the IRS budget before it is submitted to the Department of the Treasury.
Notwithstanding, Oversight Board members are concerned that the Board has not had
enough influence in the budget process. The IRS budgets submitted by the President
and those passed by the Congress have been significantly less than those submitted by
the Board. Congressional committee staffs indicated that the Board would be
well-served to ensure the Board’s budget contains enough detail to support
recommendations for increases and also to ensure equal focus is maintained on
achieving savings and efficiencies.
One important reason the Board was created was to oversee the modernization of the
IRS’ information systems. There are indications that better oversight of Business
Systems Modernization (BSM) efforts by the Board was needed earlier in the process.
The progress of IRS systems modernization is significantly behind schedule and over
budget. Many of the recommendations made by the Board in December 2003 were
made much earlier through independent assessment by the Government Accountability
Office (GAO)2 and the TIGTA. Better coordination and use of these sources of
independent data would have helped the Board develop a more effective oversight
strategy.
Universally, Oversight Board members were concerned about lengthy vacancies on the
Board because they create a tremendous amount of work for other Board members and
reduce the collective business expertise which can be provided by the Board. For most
of its history, the Board has had one or two vacancies. A proposed measure designed
to avoid prolonged vacancies has been included in new legislation which is now under
consideration.3 If the legislation is enacted, an automatic extension of a Board
member’s term for up to 1 year would be granted if a successor is not timely confirmed.
However, its success would depend on existing Board members’ willingness to continue
to serve past their terms.
Finally, in line with corporate best practices, the Oversight Board needs to clearly define
Board procedures and practices to govern the manner in which it conducts its oversight
and documents formal Board decisions. Additionally, because there will be significant
turnover on the Board within the next 2 years, the Board needs a defined system to
educate and assist new members on IRS operations and issues.
We recommended the Board formalize its process to strategically focus its efforts on the
most significant issues facing the IRS, adopt a process for evaluating its effectiveness
and impact on tax administration, and include its self-assessment in its annual report to
the Congress or other appropriate public document. Additionally, the Board should
define practices for coordinating with IRS executives and other oversight bodies to
avoid duplicate requests for information. The Board should also develop policies and
procedures to evaluate the IRS’ efforts and results in achieving savings and efficiencies
to be detailed in its budget submission. The Board should make timely use of

2
    Formerly the General Accounting Office.
3
    Tax Administration Good Government Act – H.R. 1528 108th Cong. § 127 (2004).
                                            3

independent assessments of the IRS’ modernization and other programs. Further, we
recommended that the Board establish guidance to specify which circumstances will
require a formal resolution and establish a process to formally vote and publish
resolutions. A system to educate new Board members on IRS operations and strategic
issues should also be defined.
Management’s Response: In general, the Board agreed with all of our
recommendations. The Board agreed that it can more sharply focus on key issues
facing the IRS, intervention should be used in unusual circumstances, self-assessments
would be useful, it can better coordinate how it gathers information from the IRS, and it
will hold more frequent meetings with the GAO and the TIGTA, if requested. The Board
will place more emphasis on evaluating the extent to which IRS savings and efficiencies
previously estimated were actually achieved and ask the IRS to document ways in
which it can be more efficient. The Board agreed with the need to make use of
independent assessments of the IRS’ modernization and other programs to develop an
effective oversight strategy. The Board agreed with the need for documenting its
procedures and votes on significant issues; however, it noted that there are
circumstances involving sensitive issues that might not be appropriate to publish.
Lastly, the Board is developing a more formal process to educate new members in
Board and IRS governance issues and will continue to refine this effort with the
guidance of new members.
Notwithstanding, the Board did note some general and specific concerns about the
report. The Board believes the report overstates its authority and responsibility related
to the management of the IRS. It believes the Board’s purpose is to oversee strategic
issues, not to delve into day-to-day IRS operational functions. Moreover, it believes the
very nature of the Federal Government budget process, in which the President
proposes and the legislative branch approves and appropriates funds, limits the Board’s
ability to influence the organization. The Board does not want to publicly report the
results of its self-assessments and noted that corporate boards normally do not publicly
report the results of their evaluations because such reports would compromise the
honesty and effectiveness of the evaluation process. The Board believes its
effectiveness must be measured by how well the IRS performs given its operating
environment and resources.
The Board also expressed concern about the report’s portrayal of its position on funding
for the BSM program. The Board believes the BSM program should be accomplished
as quickly as possible, but at the same time it believes funds should not be spent
beyond the capacity of the IRS and its contractor to manage the BSM program. The
Board stated that its emphasis has been on the importance of multiyear funding. It is
concerned that, to this day, the multiyear fund has not been restored to its original
intent, creating inefficiencies every time the fund approaches a zero balance. The
Board’s complete response to the draft report is included as Appendix XII.
Office of Audit Comment: We believe our recommendations are oriented to the Board’s
strategic role and focus and are in line with the Board’s authority and responsibility
related to the management of the IRS. We further believe the Board can implement the
                                             4

recommendations without getting involved in the day-to-day operations of the IRS. It is
well within the Board’s authority to ensure the IRS has strategies to address important
issues and is accountable for effectively implementing those strategies. Furthermore,
while the Board is generally in agreement that there are times when intervention by the
Board is appropriate, we believe the circumstances that warrant intervention by the
Board are more frequent than indicated by the Board’s response. We believe the Board
should adopt such a strategy where needed, rather than waiting for unusual
circumstances.
We are concerned with the Board’s reluctance to provide an assessment of its impact
on tax administration to the Congress and the public. Such an assessment would not
only be helpful to the Congress and the public in understanding the Board’s impact but
would also help the Board gauge and improve its effectiveness. While we agree that
IRS successes and shortcomings may be reflective of the Board’s oversight, it is difficult
to distinguish the Board’s role without an adequate self-assessment. Unfortunately,
many ineffective corporate boards have been identified only after significant corporate
failure. As such, we believe a more transparent assessment would be a better model to
follow for a public entity responsible for overseeing the administration of the nation’s tax
laws. Moreover, the Board is an entity of the Federal Government. Like all Federal
Government functions, it too is accountable to the public and its stakeholders. Many
people with whom we spoke in the course of this audit inquired about the Board’s worth.
We believe an honest and public appraisal of the Board’s contribution to tax
administration is a reasonable expectation.
Notwithstanding the Board’s assertions related to the importance of multiyear funding
for the BSM program, the Board’s funding requests exceeded the IRS’ capacity to
manage and implement the program. The $1 billion recommended in the Board’s 2001
testimony (which included $450 million for FY 2002 and $550 million for FY 2003) was
far more than the IRS could effectively manage. We do not believe the Board provided
adequate fiscal oversight or accountability to the BSM effort. We are concerned that the
Board’s focus on increased funding, rather than an effective oversight strategy early on
in the process, has limited its impact in this area. As such, many of the same issues
and problems are noted in the Board’s annual report year after year.
Copies of this report are also being sent to the Congressional committees charged with
overseeing the IRS. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                  The Oversight Board Has Achieved Much of Its Original Intent,
                     but There Are Opportunities for Increased Effectiveness




                                                  Table of Contents


Background ............................................................................................... Page 1
The Oversight Board Has Significant Responsibility and Authority ........... Page 3
Many Stakeholders Indicate the Oversight Board Has
Improved Internal Revenue Service Governance...................................... Page 7
Some Stakeholders Believe the Oversight Board Needs to
Do More to Positively Affect Tax Administration........................................ Page 8
         Recommendation 1: .......................................................................Page 11
         Recommendation 2: .......................................................................Page 12

Some Internal Revenue Service Officials Expressed Concerns
About Duplicate Oversight and the Potential for Conflicts
of Interest .................................................................................................. Page 13
         Recommendation 3: .......................................................................Page 16

Oversight Board Members Are Concerned That the Board
Has Not Been Influential in the Internal Revenue Service
Budget Process......................................................................................... Page 17
         Recommendation 4: .......................................................................Page 19

Better Oversight of Business Systems Modernization Was
Needed Earlier in the Process................................................................... Page 19
         Recommendation 5: .......................................................................Page 24

Lengthy Vacancies on the Oversight Board Can Negatively
Affect Its Operations.................................................................................. Page 25
Following Best Practices on Process Guidelines and
Member Continuing Education Could Improve the Oversight
Board’s Effectiveness................................................................................ Page 27
         Recommendations 6 and 7: ...........................................................Page 29

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 30
Appendix II – Major Contributors to This Report ....................................... Page 31
Appendix III – Report Distribution List ....................................................... Page 32
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

Appendix IV – Comparison of Federal Government Boards
              and Their Responsibilities .................................................. Page 33
Appendix V – Internal Revenue Service Restructuring and Reform
              Act of 1998 ......................................................................... Page 35
Appendix VI – Internal Revenue Service Oversight Board Committee
              Structure and Responsibilities ............................................ Page 37
Appendix VII – Modernization Schedule Delays and Cost Increases........ Page 39
Appendix VIII – Internal Revenue Service Business Systems
                Modernization-Related Final Reports Issued by the
                Treasury Inspector General for Tax Administration
                Information Systems Programs Business Unit in
                Fiscal Years 2000 – 2003 ................................................ Page 40
Appendix IX – Selected Treasury Inspector General for Tax
              Administration Business Systems Modernization
              Recommendations............................................................. Page 43
Appendix X – Business Systems Modernization Projects and
             Descriptions........................................................................ Page 45
Appendix XI – Status of the Oversight Board’s Operating Philosophies ... Page 47
Appendix XII – Management’s Response to the Draft Report ................... Page 48
             The Oversight Board Has Achieved Much of Its Original Intent,
                but There Are Opportunities for Increased Effectiveness

                                 In 1996, the National Commission on Restructuring the
Background
                                 Internal Revenue Service (IRS) was created to examine and
                                 make specific recommendations to address a number of
                                 widely acknowledged problems at the IRS. These problems
                                 included an outdated management and governance structure,
                                 inadequate accountability, lack of responsiveness, and
                                 failure to modernize its information systems. In 1997, the
                                 Commission issued its report entitled, A Vision for a New
                                 IRS, with recommendations to help transform the IRS into
                                 an efficient, modern, and responsive agency.
                                 One of the primary concerns of the Commission was that
                                 the oversight structure did not allow the IRS to set and
                                 maintain consistent long-term strategies and priorities. The
                                 Commission noted the following contributing factors which
                                 hindered the IRS in achieving organizational success:
                                     •   Congressional oversight of the IRS was distributed
                                         among seven committees.
                                     •   The average length of time an IRS Commissioner
                                         served was less than 3 years.
                                     •   Department of the Treasury officials concentrated
                                         more on tax policy than tax administration.
                                     •   The IRS budget varied significantly from year to
                                         year, which made it difficult to fulfill strategic
                                         priorities.
                                 To provide the IRS the management stability needed to
                                 develop and implement long-term strategies and priorities,
                                 the Commission made a number of recommendations. One
                                 key recommendation was to establish a Board of Directors
                                 to oversee the IRS in its administration, management,
                                 conduct, direction, and supervision of the execution and
                                 application of the tax laws.
                                 On July 22, 1998, the President signed into law the IRS
                                 Restructuring and Reform Act of 1998 (RRA 98).1 This law
                                 mandated a sweeping reorganization of the IRS and
                                 incorporated many of the recommendations of the
                                 Commission. One provision of the law was to create the

                                 1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                Page 1
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    IRS Oversight Board. The RRA 98 provides the IRS
                    Oversight Board with the responsibility to oversee the IRS
                    in its administration, management, conduct, direction, and
                    supervision of the execution and application of the internal
                    revenue laws or related statutes to which the United States is
                    a party.
                    The RRA 98 specifies that the Oversight Board is to be
                    composed of nine members, including the Secretary (or
                    Deputy Secretary) of the Treasury and the IRS
                    Commissioner. The seven other members are appointed by
                    the President, with the advice and consent of the Senate, for
                    5-year terms. One of these members must be an individual
                    who is a full-time Federal Government employee or a
                    representative of employees. Six members must be
                    individuals who are not otherwise Federal Government
                    officers or employees. They should be appointed, without
                    regard to political affiliation, solely on the basis of their
                    professional experience and expertise in one or more of the
                    following areas:
                       •   Management of large service organizations.
                       •   Customer service.
                       •   Federal tax laws, including administration and
                           compliance.
                       •   Information technology.
                       •   Organization development.
                       •   The needs and concerns of taxpayers.
                       •   The needs and concerns of small businesses.
                    The private-life members of the Board are paid $30,000 per
                    year, except for the chairperson (who is elected by the rest
                    of the Board) who is paid $50,000 per year. The Board is
                    also authorized to appoint staff and as of August 2004 had
                    four staff members assisting it in its duties. The Board also
                    has the ability to contract for temporary or intermittent
                    services if needed. The Board’s operating budget of
                    approximately $2 million per year comes from the IRS
                    budget through an interagency agreement. Any unused
                    funds are returned to the IRS. The IRS Oversight Board
                    began its operations in September 2000.


                                                                            Page 2
                 The Oversight Board Has Achieved Much of Its Original Intent,
                    but There Are Opportunities for Increased Effectiveness

                                     Organizational governance and oversight has been a
                                     significant concern to the Congress over the last few years,
                                     first with corporate governance and recently with the
                                     oversight of the United States intelligence and law
                                     enforcement agencies. There is a renewed interest in the
                                     standards to which oversight bodies, and the individuals
                                     serving on them, should be held. The Congress passed the
                                     Sarbanes-Oxley Act of 20022 to address problems of
                                     corporate governance by instituting controls and raising the
                                     level of accountability.
                                     The RRA 98 provides the Treasury Inspector General for
                                     Tax Administration (TIGTA) the authority to conduct audits
                                     and investigations of the IRS Oversight Board. This audit
                                     was performed at the IRS National Headquarters and the
                                     IRS Oversight Board office in Washington, D.C., during the
                                     period September 2003 through August 2004. We
                                     interviewed members and staff of selected Congressional
                                     committees or subcommittees, the cochairs of the National
                                     Commission on Restructuring the IRS, Oversight Board
                                     members and several former Board members, the IRS
                                     Commissioner and two former Commissioners, as well as
                                     IRS senior executives and tax practitioner groups. The audit
                                     was conducted in accordance with Government Auditing
                                     Standards. Detailed information on our audit objective,
                                     scope, and methodology is presented in Appendix I. Major
                                     contributors to the report are listed in Appendix II.
                                     The RRA 98 provided the IRS Oversight Board far more
The Oversight Board Has
                                     authority than advisory boards such as the Social Security
Significant Responsibility and
                                     Advisory Board. An advisory board is responsible for
Authority
                                     advising the head of the agency and can make
                                     recommendations on issues but does not have authority to
                                     compel action on its recommendations. In contrast, the IRS
                                     Oversight Board has the authority and responsibility to be
                                     directly involved in the management, direction, strategy,
                                     and long-term operation of the IRS. The Board was
                                     specifically granted review and approval authority for
                                     strategic plans (including the establishment of mission and
                                     objectives, standards of performance, and annual and
                                     long-range plans), the Commissioner’s plans for any major


                                     2
                                         Pub. L. No. 107-204, 116 Stat. 745 (2002).
                                                                                           Page 3
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    reorganization of the IRS, and the IRS budget request
                    submitted by the Commissioner (see Appendix V). With
                    respect to those matters over which the Board has approval
                    authority, the Board’s decisions are determinative.
                    In addition, the Board was given the responsibility to
                    review, but not to approve, the following:
                          •    Operational plans and functions of the IRS including
                               modernization of the tax system, outsourcing or
                               managed competition, and training and education.
                          •    The Commissioner’s selection, evaluation, and
                               compensation of IRS senior executives who have
                               program management responsibility over significant
                               functions of the IRS.
                    The Board also has the responsibility to recommend to the
                    President candidates for appointment as the IRS
                    Commissioner and, if it believes necessary, to recommend
                    to the President the removal of the Commissioner.
                    The IRS Oversight Board’s structure is similar to that of a
                    corporate board of directors, with part-time members who
                    have full-time jobs in the private sector. There are Federal
                    Government boards with similar or broader authorities than
                    those of the IRS Oversight Board, such as the United States
                    Postal Service Board of Governors. A comparison of the
                    authorities of the United States Postal Service Board of
                    Governors and Social Security Advisory Board with those
                    of the IRS Oversight Board is shown in Appendix IV.
                    IRS Oversight Board committees
                    Corporate boards of directors generally set up committees of
                    specific board members to oversee specific areas. The IRS
                    Oversight Board also follows this practice. It set up three
                    committees for specific oversight activities.3 Each
                    committee is composed of three Board members. The
                    committees are:
                    Business Transformation Committee – Oversees the
                    modernization of the IRS’ information systems. It reviews
                    the progress of the modernization effort to evaluate whether


                    3
                        See Appendix VI for details about the Oversight Board committees.
                                                                                    Page 4
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    the IRS is meeting its strategic and operational goals and
                    objectives in this area.
                    Human Capital Committee – Reviews performance
                    evaluations and compensation of certain IRS senior
                    executives, the use of critical pay to recruit for high-level
                    positions requiring special skills, staffing issues, and
                    training.
                    Performance Management Committee – Monitors the
                    IRS’ progress in meeting its strategic and operational goals
                    and objectives. It conducts quarterly performance reviews
                    on the four IRS operating divisions, as well as the
                    Modernization and Information Technology Services
                    organization, and biannual reviews of the Offices of
                    Appeals, Chief Human Capital Officer, and Agency-Wide
                    Shared Services.
                    Limitations on the Oversight Board’s authority
                    With Board members from the private sector overseeing the
                    operations of a tax enforcement agency, there is the
                    potential for conflicts of interest. To alleviate this potential,
                    the RRA 98 places certain restrictions on the Board’s
                    authority.
                    Because of the sensitive nature of tax information,
                    disclosure of tax information to any member of the
                    Oversight Board, or to any employee or detailee of the
                    Board, is prohibited. Any request for information not
                    permitted to be disclosed and any contact relating to a
                    specific taxpayer, made by any such individual to an officer
                    or employee of the IRS, must be reported by such officer or
                    employee to the Secretary of the Treasury, the TIGTA, and
                    the Joint Committee on Taxation.
                    Further, the Board has no responsibility or authority with
                    respect to specific law enforcement activities of the IRS,
                    including specific compliance activities such as
                    examinations, collection activities, and criminal
                    investigations.
                    The RRA 98 also provides that the Board has no
                    responsibility or authority on tax policy, specific
                    procurement activities of the IRS, or specific personnel
                    actions other than the selection, evaluation, and
                                                                              Page 5
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    compensation of IRS senior executives who have program
                    management responsibility over significant functions of the
                    IRS.
                    Responsibilities to review the selection and performance
                    of senior executives
                    One of the most important powers of a corporate board in
                    holding executives accountable for performance is the
                    power to select and remove a corporation’s top executives
                    as well as to set their compensation. The Oversight Board
                    does not have such authority; it only has the responsibility
                    to review and recommend in this area. The Human Capital
                    Committee4 reviews senior IRS executives’ performance
                    evaluations and proposed bonuses and makes
                    recommendations to the Commissioner based on these
                    reviews. The number of executives subject to this review
                    can change and is limited to those who have program
                    management responsibility over significant functions of the
                    IRS. In Fiscal Year (FY) 2004, the Board concluded that
                    only 18 of the 285 executive positions met the review
                    criteria. The 18 include both Deputy Commissioners, as
                    well as the heads of the operating divisions and major
                    business units and selected modernization positions.
                    Additionally, the IRS informs the Board of any impending
                    vacancies in these designated senior executive positions and
                    consults with the Board regarding any proposed plans to fill
                    these vacancies. After the Commissioner has made a
                    selection, the IRS submits information about the individual
                    to the Board. The Board reviews the selection and informs
                    the Commissioner of the results of its review. The Board
                    does not, however, have the power to bar the Commissioner
                    from selecting whomever he or she chooses. The Board
                    also reviews the IRS’ Streamlined Critical Pay authority
                    program but does not evaluate each critical pay position.5




                    4
                      See Appendix VI for more details about the Human Capital
                    Committee.
                    5
                      The IRS is authorized to hire and have on the rolls 40 individuals with
                    unique skills not readily available in the Federal Government workforce.
                    These individuals are hired for a term of up to 4 years and are eligible
                    for pay up to the amount of the United States Vice President’s salary.
                                                                                     Page 6
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

                                    There is proposed legislation currently under consideration
                                    which would provide the Board more authority in this area.
                                    The legislation requires that the Oversight Board approve
                                    the IRS Commissioner’s selection, evaluation, and
                                    compensation of senior executives. This would be much
                                    more in line with the authorities of corporate boards in
                                    holding senior management accountable for achieving
                                    results. Corporate best practices indicate that pay should be
                                    strongly linked to performance and that independent board
                                    members are in the best position to objectively evaluate the
                                    reasonableness of the compensation based upon executive
                                    performance.6
                                    Universally, IRS officials and stakeholders we interviewed
Many Stakeholders Indicate the
                                    shared the view that the Board members are dedicated and
Oversight Board Has Improved
                                    hard-working individuals who devote a great deal of time
Internal Revenue Service
                                    and effort to providing oversight to the IRS. Board
Governance
                                    members attend bimonthly meetings and spend additional
                                    time on IRS Oversight Board committees as well as
                                    consulting with IRS executives. Board members also travel
                                    to meet with and discuss the concerns of IRS employees and
                                    tax practitioners.
                                    Stakeholders also provided examples of the benefits of the
                                    Board as a new element of governance to the IRS. The
                                    creation of the Board put people with expertise important to
                                    tax administration, such as information technology,
                                    management, customer service, organizational development,
                                    and reorganization, in a position to provide effective
                                    oversight, guidance, and strategic direction to the IRS.
                                    Stakeholders also stated that the Board has made senior IRS
                                    management more accountable for implementing its
                                    strategic plan than it has been in the past.
                                    IRS officials and external stakeholders believe one of the
                                    most important roles of the Board has been to provide
                                    continuity to the management of the IRS. When the former
                                    Commissioner completed his 5-year term and the current
                                    Commissioner was appointed, the Board was in a position to
                                    ensure the strategic initiatives and priorities were
                                    understood and maintained. The continuity provided by the


                                    6
                                     Business Roundtable Guide entitled, Executive Compensation:
                                    Principles and Commentary (November 2003).
                                                                                                   Page 7
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

                                    Board protects against unwarranted shifts in direction or
                                    operation.
                                    Additionally, several of the IRS stakeholder groups have
                                    complimented the Board for soliciting the stakeholders’
                                    concerns. The private-life Board members hold a public
                                    meeting annually to seek input on various tax-related
                                    issues.7 Fifteen stakeholder groups made presentations at
                                    the last meeting, held in January 2004. During that meeting,
                                    the Board received specific concerns or suggestions for
                                    improvements within the IRS. Board members also attend
                                    the annual IRS Tax Forums to speak to tax professionals
                                    and IRS employees.
                                    IRS officials stated that the opportunity to consult with
                                    individual Board members on issues and plans has been
                                    valuable because of the Board members’ experience and
                                    expertise. IRS officials also stated that the Board has been
                                    active in the strategic planning and budgeting process and
                                    has helped the IRS to develop a process intended to provide
                                    realistic budget allocations needed to support the IRS
                                    strategic and annual plans. As the IRS developed its 5-year
                                    strategic plan in early 2004, the Board reviewed the draft
                                    plan and provided comments and suggestions to the
                                    Commissioner and his staff.
                                    Over the last 3 years, the Oversight Board has also
                                    conducted an annual survey of taxpayers to determine their
                                    attitudes toward the IRS and complying with the tax laws.
                                    Information from these surveys has been used by the Board
                                    and others to focus attention on the need for the IRS to
                                    balance its resources and attention among its compliance,
                                    customer service, and modernization efforts.
                                    While stakeholder groups were appreciative of the Board’s
Some Stakeholders Believe the
                                    openness and willingness to discuss concerns with IRS
Oversight Board Needs to Do
                                    operations, some were concerned that the same issues are
More to Positively Affect Tax
                                    brought to the Board’s attention each year with no apparent
Administration
                                    action taken to remedy them. Without an effective strategy
                                    for addressing these concerns, the opportunity to contribute
                                    to their resolution is diminished.

                                    7
                                     The Secretary of the Treasury (or Designee) and the IRS
                                    Commissioner do not attend these sessions. They believe their presence
                                    could inhibit the free flow of ideas from the presenters to the Board.
                                                                                                  Page 8
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    Moreover, some stakeholders expressed the concern that the
                    IRS does not need another advisory group, and, if
                    “providing advice” becomes the Board’s primary mission,
                    there is no need for the Board. There was additional
                    concern by certain former Federal Government officials
                    that, if the Board reaches the point at which people are not
                    taking it seriously, the existence of the Board could be
                    viewed as a negative rather than a positive. Board members
                    could be perceived as meddling and consuming a lot of time
                    with no productive result.
                    The Board creates an annual plan for each upcoming year,
                    and by law the Board must cover certain topics such as
                    computer modernization and the budget. Nonetheless, it
                    does not have a strategy for prioritizing and addressing
                    operational issues. Examples of potential sources of issues
                    that could be considered when setting the annual plan are
                    the President’s Management Agenda, major management
                    challenges identified by the Government Accountability
                    Office (GAO)8 and the TIGTA, and the annual IRS National
                    Taxpayer Advocate’s report. Whatever source is used, the
                    Board needs a formal process to ensure it is focused on the
                    most significant issues facing the IRS.
                    In addition to a strategic plan to identify key issues, the
                    Board needs a strategy for intervention. The intervention
                    strategy should include such matters as determining who
                    should be engaged, designing remediation actions,
                    determining the types and sources of information needed,
                    and developing performance and reporting responsibilities
                    of IRS officials, timelines, and standards to measure
                    accomplishments.
                    The Oversight Board’s recent comprehensive efforts to
                    address the training shortcomings of the IRS constitute a
                    good model to follow. The training project involves many
                    of these components, including working with the IRS Chief
                    Human Capital Officer and top officials in the IRS operating
                    divisions and business units, the TIGTA, and potentially,
                    external consultants. Over time, it is expected to bring
                    attention and accountability to this pressing matter. The
                    oversight plan under consideration will closely follow the

                    8
                        Formerly the General Accounting Office.
                                                                          Page 9
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    GAO’s guidelines,9 will assess the adequacy of training and
                    professional development, and will include clear
                    expectations for operating divisions and business units to
                    follow in documenting their training investment and results.
                    The expected protocol will also call for routine
                    presentations to the Board and will draw from related GAO
                    and TIGTA audit work on the subject.
                    Board self-assessments
                    The June 2003 Business Roundtable Corporate Governance
                    survey states, “The performance of the full corporate board
                    should be evaluated annually, as should the performance of
                    its committees. The board should conduct periodic,
                    generally annually, self-evaluations to determine whether it
                    and its committees are following the procedures necessary
                    to function effectively.”
                    The Oversight Board conducted a self-assessment during
                    2002. The assessment included recommendations the Board
                    members or staff believed should be adopted to improve the
                    effectiveness of the Board. However, the self-assessment
                    was performed only once. The Board does not have any
                    procedures or proposed procedures requiring that it
                    routinely conduct self-assessments. These self-assessments
                    should include what impact the Board has had on improving
                    the operations of the IRS and what issues it has
                    communicated to IRS stakeholders and oversight bodies.
                    The need to assess the Oversight Board’s contribution and
                    impact was evident in the reaction from stakeholders to our
                    questions on the topic. When asked, most stakeholders
                    volunteered that the Oversight Board has been beneficial to
                    the IRS, but few could point to any specific ways in which
                    the IRS had changed as a result of the Board’s efforts.
                    The IRS Oversight Board should develop these procedures
                    and detail how the assessments should be performed and
                    how the results will be used. The Board should also
                    determine which measures to use to evaluate its impact on
                    tax administration to enhance the usefulness of these
                    assessments. In addition, the Board should include its


                    9
                      A Guide for Assessing Strategic Training and Development Efforts in
                    the Federal Government (GAO-03-893, dated July 2003).
                                                                                 Page 10
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    impact on tax administration in its annual report to the
                    Congress or other public document.
                    Communication of issues
                    The communication between the Board and other oversight
                    bodies, such as the seven Congressional committees
                    responsible for oversight, varied significantly over the first
                    few years of the Board’s operation. Some Congressional
                    committee members and staffs believed the contact and
                    information from the Board was adequate and helpful;
                    however, there was some concern from Congressional
                    committee staffs as well as the Board members themselves
                    that contact between the Board and the Committees had
                    been too infrequent. Committee staffs were concerned that
                    the Oversight Board was not doing enough to make its work
                    known, either to the Congress or the public.
                    Since the Board’s formation, it has continued to take steps
                    to improve its communication. It contracted with a media
                    specialist, created a public web site, and is working to
                    formally define its overall strategy to effectively
                    disseminate the issues and findings it has developed to all
                    the appropriate IRS stakeholder groups. Additionally,
                    Board members advised us that they are beginning to
                    contact Congressional oversight committees after every
                    bimonthly Board meeting to discuss oversight issues.

                    Recommendations

                    The Oversight Board should:
                    1. Formalize its process to strategically focus its efforts on
                       the most significant issues facing the IRS. This should
                       include developing intervention strategies when
                       appropriate.
                    Management’s Response: The Board agreed that it could
                    sharpen the focus of its efforts on key strategic issues.
                    Where possible, the Board prefers to establish desired
                    outcomes that it wants the IRS to achieve rather than to
                    prescribe activities the IRS must perform. The Board also
                    prefers to limit intervention to unusual circumstances.
                    Office of Audit Comment: While we recognize the Board’s
                    general agreement with this recommendation, we believe
                                                                           Page 11
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    the circumstances that warrant intervention by the Board are
                    more frequent than indicated by the Board’s response. We
                    believe the Board should adopt such a strategy where
                    needed, rather than waiting for unusual circumstances.
                    2. Adopt a formal process for evaluating the Board’s
                       effectiveness and its impact on tax administration. In
                       addition, the Board should include its impact on tax
                       administration in its annual report to the Congress or
                       some other formal document that would be publicly
                       released.
                    Management’s Response: The Board agreed that a formal
                    self-assessment is valuable and intends to conduct another
                    assessment before the end of 2004. However, the Board
                    does not want to publicly report the results of its
                    self-assessment. It noted that corporate boards normally do
                    not publicly report the results of their evaluations because
                    such reports would compromise the honesty and
                    effectiveness of the evaluation process. The Board believes
                    its effectiveness must be measured by how well the IRS
                    performs given its operating environment and resources.
                    Office of Audit Comment: We are concerned with the
                    Board’s reluctance to provide an assessment of its impact on
                    tax administration to the Congress and the public. Such an
                    assessment would not only be helpful to the Congress and
                    the public in understanding the Board’s impact but would
                    also help the Board gauge and improve its effectiveness.
                    While we agree that IRS successes and shortcomings may
                    be reflective of the Board’s oversight, it is difficult to
                    distinguish the Board’s role without an adequate
                    self-assessment. Unfortunately, many ineffective corporate
                    boards have been identified only after significant corporate
                    failure. As such, we believe a more transparent assessment
                    would be a better model to follow for a public entity
                    responsible for overseeing the administration of the nation’s
                    tax laws. Moreover, the Board is an entity of the Federal
                    Government. Like all Federal Government functions, it too
                    is accountable to the public and its stakeholders. Many
                    people with whom we spoke in the course of this audit
                    inquired about the Board’s worth. We believe an honest and
                    public appraisal of the Board’s contribution to tax
                    administration is a reasonable expectation.

                                                                         Page 12
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

                                    While the Oversight Board’s powers are significant, the
Some Internal Revenue Service
                                    legislation which created it did not reduce the authority of
Officials Expressed Concerns
                                    other oversight bodies. One former IRS official noted that
About Duplicate Oversight and
                                    the Federal Government is intended to be divided powers
the Potential for Conflicts of
                                    and there is no more extreme case of it than the IRS, which
Interest
                                    is subject to the review of seven Congressional Committees
                                    (including small business), the GAO, the Department of the
                                    Treasury, the Office of Management and Budget (OMB),
                                    the TIGTA, and others. Unlike a corporate board, the
                                    Oversight Board is not the only governance body. In its
                                    2001 annual report to the Congress, the Oversight Board
                                    noted, “Oversight organizations must rationalize their roles
                                    to the extent possible and eliminate unnecessary overlap,
                                    leverage assets to advise in a more effective manner; and
                                    recognize that quality cannot be achieved by repetitious, and
                                    at times, inefficient inspection.”
                                    However, some IRS officials we interviewed expressed
                                    concerns that the Board did not adequately coordinate with
                                    other oversight bodies and spent too much time and energy
                                    delving into operational issues instead of focusing on
                                    strategic issues. They indicated that the level of detail
                                    required by the Board was using too much of some IRS
                                    executives’ time and that requests for information by Board
                                    members confuse the lines of authority between the
                                    Commissioner and his staff and diffuse accountability.
                                    Board members acknowledged these concerns; however,
                                    they stated that a sound knowledge of IRS operations was
                                    needed to provide adequate strategic direction. The Board
                                    has the responsibility to provide its collective professional
                                    management expertise to the IRS; it has the charge to
                                    oversee the IRS in its administration, management, conduct,
                                    direction, and supervision of the execution and application
                                    of the internal revenue laws. Board members further
                                    explained that the types of requests for information made by
                                    the Oversight Board did not materially differ from requests
                                    made by private boards. Notwithstanding, Board members
                                    did agree that voluntary coordination among oversight
                                    functions could provide a significant benefit to oversight
                                    and reduce the time and resources needed to obtain
                                    necessary information.


                                                                                         Page 13
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    Oversight of enforcement activities
                    In line with its responsibilities, the IRS Oversight Board has
                    monitored many aspects of the IRS’ enforcement and
                    compliance efforts. The minutes of Board meetings show
                    the Board addressed compliance activities including the
                    following: compliance measurement, examination
                    coverage, corporate tax shelters, contracting out collection,
                    the Earned Income Tax Credit precertification program,
                    Offers in Compromise, Form K-110 matching program,
                    National Customer Research Study, activities of the
                    Criminal Investigation function, and overseas credit cards.
                    However, certain IRS officials expressed concerns that, for
                    the private-life Board members, there are inherent conflicts
                    of interest in providing oversight to enforcement activities
                    because of the potential to act on behalf of their own or
                    associates’ business interests. Moreover, because the
                    RRA 98 prohibits the Board’s involvement in specific
                    enforcement activities, the IRS officials believe the Board
                    should refrain from any oversight or involvement in
                    evaluating IRS enforcement and compliance activities.
                    They pointed out that other law enforcement agencies, to
                    avoid potential conflicts of interest, have only advisory
                    boards.
                    In addition, IRS officials expressed concern that the Board’s
                    responsibility to review and provide input on the selection
                    and compensation of IRS executives could affect IRS
                    executives’ decisions related to Board members and their
                    associates’ businesses on tax matters. They believe new
                    proposed legislation to provide the Board approval authority
                    over the selection and compensation of certain IRS
                    executives would increase the potential for influence.
                    These concerns are serious and fundamentally tie to the
                    intent and interpretation of the legislation that established
                    the Board. It is clear from the legislative history that the
                    Congress intended (1) for the Board to provide oversight of
                    enforcement and compliance activity and (2) to exclude the
                    Board from any involvement in specific taxpayer cases only.
                    The Joint Explanatory Statement of the Committee of

                    10
                     Form 1065 Schedule K-1, Partner’s Share of Income, Credits,
                    Deductions, etc.
                                                                               Page 14
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    Conference states, “This provision is not intended to limit
                    the Board’s authority with respect to review and approval of
                    strategic plans and the budget of the Commissioner or to
                    preclude the Board from review of IRS operations
                    generally.”11
                    The Senate Amendment provided that the Board had no
                    authority (1) to intervene in specific taxpayer cases,
                    including compliance activities involving specific taxpayers
                    such as criminal investigations, examinations, and collection
                    activities, and (2) to intervene in specific personnel matters.
                    The Senate Amendment further provided that the Board
                    does have authority with respect to general law enforcement
                    matters, and it has the responsibility to ensure the
                    organization and operation of the IRS allows it to carry out
                    its mission.12
                    Moreover, the risk that the Board’s authorities over the
                    selection and compensation of executives could influence
                    IRS executives’ decisions related to Board members or their
                    associates’ businesses is no greater than the possibility that
                    the Commissioner, IRS officials, Department of the
                    Treasury officials, or members of the Congress could exert
                    the same influence based upon present or past associations.
                    Further, within the IRS, there are procedures to help prevent
                    such influence. The private-life members are subjected to
                    the same vetting and review process as are the Secretary of
                    the Treasury and the IRS Commissioner before appointment
                    to their positions; they are also subject to removal at the will
                    of the President. Private-life members must also file a
                    public financial disclosure statement, are subject to
                    restrictions on postemployment, and are treated as special
                    Federal Government employees during their terms on the
                    Board.13 As such, they are subject to ethical rules applicable
                    to special Federal Government employees who serve more
                    than 60 days during any 365-day period. For example,
                    private-life members of the Board may not represent clients
                    before the IRS, Department of the Treasury, or Tax Court



                    11
                       H.R. Conf. Rep. No. 105-599, at 196 (1998).
                    12
                       H.R. Conf. Rep., supra at 199.
                    13
                       I.R.C. § 7802(b)(3) (1998).
                                                                            Page 15
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    on matters involving certain parties during their terms as
                    Board members.
                    Further, disclosure of tax information to any member of the
                    Oversight Board, or to any employee or detailee of the
                    Board, is prohibited. Any request for information not
                    permitted to be disclosed and any contact relating to a
                    specific taxpayer, made by any such individual to an officer
                    or employee of the IRS, must be reported by such officer or
                    employee to the Secretary of the Treasury, the TIGTA, and
                    the Joint Committee on Taxation. Additionally, supervisory
                    reviews and the separation of duties across IRS operations
                    help prevent improper influence on tax matters without
                    significant collusion on the part of IRS officials.
                    Based on the intent of a board to ensure accountability of
                    the organization through its senior executives, the proposed
                    legislation to provide the Oversight Board approval
                    authority over the selection and compensation of certain IRS
                    executives would be in line with a board’s normal authority.
                    Corporate board staff members we interviewed indicated
                    this is an important authority and that, without this
                    authority, a corporate board would have minimal power to
                    hold executives accountable.

                    Recommendation

                    3. The Oversight Board should define practices for
                       coordinating with IRS executives and other oversight
                       bodies to avoid duplicate requests for information. This
                       could include direct access to IRS information systems,
                       when permissible, to minimize requests for information
                       from IRS operating components.
                    Management’s Response: The Board agreed with this
                    recommendation and, where appropriate, supports the idea
                    of direct access to IRS information. The Board will work
                    with the IRS to determine the appropriate measures and
                    review cycles to minimize information collection activities.
                    Additionally, the Board will continue to seek information
                    from outside stakeholders and will meet with the GAO and
                    TIGTA more often, if requested.



                                                                          Page 16
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

Oversight Board Members Are         To ensure the budget adequately supports the IRS strategic
Concerned That the Board Has        priorities, the Oversight Board must approve the IRS budget
Not Been Influential in the         before it is submitted to the Department of the Treasury.
Internal Revenue Service Budget     However, because the Department of the Treasury and the
Process                             OMB make revisions to the IRS budget in formulating the
                                    President’s budget request, the RRA 98 requires the
                                    President to submit the Board’s request to the Congress
                                    without revisions, along with the President’s annual budget
                                    request for the IRS. This provision is intended to ensure the
                                    Congress may consider the Board’s submission in its own
                                    budget deliberations.
                                    It is difficult to assess whether the Board’s involvement in
                                    the budget process has had an effect on the budget passed by
                                    the Congress. The IRS budgets submitted by the President
                                    and those passed by the Congress have been significantly
                                    less than those submitted by the Board. The budgets
                                    approved by the Board and those passed by the Congress are
                                    shown in Table 1.
                                        Table 1: IRS Budget Amounts Requested and Approved –
                                            FYs 2002 through 2005 (amounts are in billions)
                                                          Amount Requested by:             Amount
                                      Fiscal Year                                        Approved by
                                                    Oversight Board       President      the Congress
                                         2002            $10.260            $9.422          $9.437
                                         2003            $10.056            $9.916          $9.835
                                         2004            $10.724           $10.437         $10.185
                                         2005             $11.204          $10.674          Pending
                                    Source: The President’s Budgets and Congressional Testimony.

                                    A concern of Board members is that the OMB has not been
                                    receptive to discussions with the Board when formulating
                                    the President’s budget. Additionally, the OMB includes the
                                    budget submitted by the Oversight Board as only a footnote
                                    to the President’s budget. Although the IRS Commissioner
                                    and the Secretary of the Treasury are members of the Board,
                                    they must support the budget request of the President. To
                                    help ensure the budget submitted by the Oversight Board is
                                    not constrained by this, recently proposed legislation would
                                    change the budget process so private-life members of the
                                    Board would submit the Board’s recommended budget
                                    without prior review or approval of the IRS Commissioner,
                                                                                              Page 17
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    the Secretary of the Treasury or other employees of the
                    Department of the Treasury, and the OMB.
                    The Board’s focus on the importance of its budget request is
                    due in large part to the significant declines in the numbers of
                    IRS enforcement employees and the effect these reductions
                    have had on compliance and tax revenue. Collection and
                    Examination function enforcement staffing combined
                    declined from around 25,000 at the beginning of FY 1996 to
                    around 16,000 at the end of FY 2003, a 36 percent decrease.
                    The IRS’ gross accounts receivable is approximately
                    $280 billion; however, revenue collected as the result of
                    enforcement has only recently begun to return to its
                    FY 1996 level of $38 billion.
                    In each of its four annual budget requests, the Board
                    routinely requested additional funding for compliance
                    efforts. Since his confirmation in May 2003, the new
                    Commissioner has advocated a significant increase in
                    enforcement activities and personnel to strengthen
                    enforcement of the tax laws, and the Board has supported
                    these efforts. In its last budget request, the Board cited a tax
                    gap of $311 billion14 and requested funding for an additional
                    3,315 Full-Time Equivalents (FTE)15 in FY 2005 to boost
                    compliance efforts. The original proposed hiring plan for
                    FY 2005 was greater; however, the Board advised IRS
                    executives that the original hiring plan be changed to allow
                    increases to happen over a longer period to ensure
                    enforcement staff are not hired at a rate faster than that at
                    which they can be trained and assimilated.
                    Certain members of the Congress stated that the Board’s
                    requests were beneficial to the budget deliberations and did
                    result in a higher budget than otherwise would have been
                    passed. However, there was also some concern by
                    Congressional committee staff members that the Board’s
                    requests for additional funding were not adequately
                    justified. Proposed legislation requires that the Board’s

                    14
                       The tax gap is the difference between what taxpayers are supposed to
                    pay and what is actually paid.
                    15
                       An FTE is a measure of labor hours in which 1 FTE is equal to
                    8 hours multiplied by the number of compensable days in a particular
                    fiscal year. For FY 2004, 1 FTE is equal to 2,096 hours. For FY 2005,
                    1 FTE will be equal to 2,088 hours.
                                                                                   Page 18
                 The Oversight Board Has Achieved Much of Its Original Intent,
                    but There Are Opportunities for Increased Effectiveness

                                     budget submission be detailed and contain analysis to
                                     support the Board’s recommendations. Congressional
                                     committee staffs were also concerned that the Board
                                     focused too much on increasing the IRS budget and not
                                     enough on holding the IRS accountable for using its
                                     resources economically.
                                     Recent testimony provided by the Director of Tax Issues for
                                     the GAO16 noted that the IRS has been unable to increase its
                                     enforcement staff because other priorities, including
                                     unbudgeted expenses and taxpayer service, have consumed
                                     budget increases and internally generated savings.
                                     Moreover, in the past, the IRS has been unable to realize all
                                     the projected savings (from operational efficiencies such as
                                     program reorganizations and consolidations) which were
                                     anticipated to help fund enforcement staffing increases.

                                     Recommendation

                                     4. The Oversight Board should develop policies and
                                        procedures to evaluate the IRS’ efforts and results in
                                        achieving savings and efficiencies. These efforts should
                                        be detailed in the Board’s IRS budget submission.
                                     Management’s Response: The Board agreed that it is
                                     appropriate to place more emphasis on achieving savings
                                     and efficiencies and asking the IRS to document ways in
                                     which it can be more efficient. The Board also stated that
                                     the IRS’ estimated savings should be evaluated after the fact
                                     to determine whether the estimated savings were achieved.
                                     Additionally, the Board will use the GAO’s annual audit of
                                     the IRS and the GAO’s assessment of how realistic IRS
                                     savings estimates are.
                                     One important reason the Oversight Board was created was
Better Oversight of Business
                                     to oversee the modernization of the IRS’ information
Systems Modernization Was
                                     systems. It was expected that the Board would provide
Needed Earlier in the Process
                                     focus, expertise, and continuity to the IRS’ modernization
                                     efforts. The IRS was dependent on obsolete computer
                                     systems which reduced the efficiency and effectiveness of
                                     tax administration. The IRS had spent approximately

                                     16
                                       Assessment of Fiscal Year 2005 Budget Request and 2004 Filing
                                     Season Performance (GAO-04-560T, dated March 2004).
                                                                                                Page 19
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    $4 billion over several years on its Tax System
                    Modernization project; however, the efforts to modernize its
                    outmoded and inefficient systems were largely
                    unsuccessful.17 The IRS began a new modernization effort
                    known as Business Systems Modernization (BSM) in 1998.
                    An essential element of this effort is the Customer Account
                    Data Engine, which is expected to provide a modern system
                    for storing, managing, and accessing taxpayer accounts.18
                    The Oversight Board created the Business Transformation
                    Committee19 to monitor the IRS’ modernization efforts.
                    Through this Committee, the Oversight Board monitors the
                    modernization program, and a representative of this
                    Committee regularly attended the IRS Core Business
                    Systems Executive Steering Committee meetings. In
                    addition, the progress of modernization has been addressed
                    at each of the Oversight Board meetings.
                    By the time the Board was in place, problems and delays
                    with the BSM effort had already begun to surface. The
                    Board initially believed increased funding was needed,
                    despite the indications that there were problems with the
                    IRS’ and the PRIME contractor’s20 performance. In
                    testimony to the Joint Committee on Taxation on
                    May 8, 2001, the Chairperson of the Oversight Board
                    recommended a $1 billion appropriation for the IRS
                    Information Technology Investment Account and that
                    $450 million of this be released to fund BSM spending in
                    FY 2002. The $450 million for FY 2002 was $53 million
                    more than the IRS had sought or justified in the official
                    budget submission by the President. The Oversight Board
                    Chairperson stated that the additional funds would allow the
                    IRS, in its efforts to modernize its systems, “to go faster and
                    get more done but still do it in an efficient manner.”


                    17
                       Business Systems Modernization – IRS Needs to Further Strengthen
                    Program Management (GAO-04-438T, dated February 2004).
                    18
                       This and other BSM systems are defined in Appendix X.
                    19
                       See Appendix VI for a more complete description of the Oversight
                    Board Committee structure.
                    20
                       To facilitate success of its modernization efforts, the IRS hired the
                    Computer Sciences Corporation as the PRIME contractor and integrator
                    for the BSM program and created the Business Systems Modernization
                    Office to guide and oversee the work of the PRIME contractor.
                                                                                   Page 20
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    However, at the same hearing, the Chairperson of the
                    Joint Committee on Taxation expressed reservations
                    about the Board’s approach. The Chairperson of the
                    Joint Committee on Taxation characterized the Board’s
                    approach as “more gas, step on the pedal,” and
                    suggested that the goals needed to be readjusted. The
                    TIGTA also expressed concerns about the Board’s
                    approach at this hearing and stated that improved
                    performance would need to be demonstrated by the IRS
                    and the PRIME contractor before additional funding
                    should be considered.
                    Some high-level IRS executives expressed the concern that
                    the Board was late in understanding the problems and
                    appropriate solutions for the BSM effort. They also
                    believed the Board was on the wrong side of the issue of
                    whether increased funding would be wise, given the
                    problems with the IRS’ and the PRIME contractor’s
                    performance on the modernization effort. According to
                    these executives, the problem was the IRS had too much
                    money and too many projects to adequately manage what it
                    had been given. Increased funding for modernization could
                    not be effectively used, given the problem of inadequate
                    management capacity. Some IRS executives believe the
                    Board should have reached such a conclusion much sooner
                    than it did and put forth a recommendation to proceed with
                    more reasonable expectations, given the inadequate IRS
                    capacity to oversee such a large project.
                    IRS executives, as well as certain Congressional committee
                    staff members, were also concerned that the Oversight
                    Board’s early position indicated it did not maintain adequate
                    independence from the former IRS Commissioner and was
                    acting more as an advocate than as an independent overseer.
                    As a result, it was left to the Congress and the OMB to
                    provide leadership and fiscal oversight to the IRS BSM
                    effort, when, in fact, one of the very reasons the Board was
                    created was to provide this type of independent oversight.
                    After continued delays and missed expectations by the
                    PRIME contractor, the IRS Commissioner and the Board
                    became concerned about the potential for significant cost
                    overruns because of the structure of the modernization
                    contract. At the April 2002 Oversight Board meeting, the

                                                                         Page 21
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    PRIME contractor was present to provide its perspective on
                    problems affecting the development and implementation of
                    the Customer Account Data Engine. Board members
                    provided their perspective on the importance of the
                    modernization program, the importance of resolving
                    problems quickly, and their expectations for action from the
                    IRS and the PRIME contractor. The contractor agreed to
                    certain contract modifications which changed a portion of
                    the cost of the Customer Account Data Engine to a fixed
                    price contract so the Federal Government would not absorb
                    all of the costs of future problems and delays.
                    The Oversight Board issued a special report in
                    December 200321 with its recommendations to remedy
                    problems with the IRS modernization program. In its
                    report, the Board also endorsed the recommendations
                    offered by a private consultant, the Software Engineering
                    Institute (SEI), who had been hired by the Commissioner as
                    part of an independent review of BSM projects. However,
                    the recommendations of the Board and the SEI largely
                    matched those of the TIGTA and the GAO, which had been
                    made public months or years earlier.22 For example, in June
                    and November 2000, the TIGTA reported on the need for
                    improved skill sets among the BSM staff. In 2002, the
                    GAO recommended the IRS slow down ongoing projects
                    and reduce the number of new projects, to better match IRS
                    modernization staff resources. In March 2003, the TIGTA
                    recommended the IRS ensure the business rules for the
                    Customer Account Data Engine were properly defined and
                    modeled. In its December 2003 report, the Oversight Board
                    made similar recommendations.
                    Timely use of these types of data (the GAO and the TIGTA
                    have published over 30 reports addressing modernization
                    issues in the past 4 years that were available to the
                    Oversight Board) may have helped to address these
                    problems earlier and avoided the expense of hiring a




                    21
                       Special Report: An Independent Analysis of IRS’ Business Systems
                    Modernization Program, December 2003.
                    22
                       See Appendix IX for a list of selected TIGTA BSM recommendations
                    made since the beginning of FY 2000.
                                                                              Page 22
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    consultant to confirm these problems.23 Nonetheless, a
                    representative of the Board’s Business Transformation
                    Committee stated that he did not read or make use of these
                    audit reports. We are concerned with the Board’s apparent
                    disregard of a significant body of work by qualified
                    specialists in the field of computer modernization. Putting
                    forth a set of recommendations that replicates those from
                    other authoritative sources, already publicly available,
                    highlights the need for the Board to bring its expertise and
                    influence to bear more timely. It further suggests that the
                    Board does not recognize the technical expertise of other
                    specialists working in this area.
                    Modernization is one area in which the Board needs to use
                    the information at its disposal to develop a strategy for
                    addressing pressing issues. It also needs to ensure the IRS
                    is using the appropriate tools for correcting problems. For
                    example, while the Board has acknowledged that a
                    significant cause of the BSM problems is inadequate
                    management capacity, this has been an ongoing problem
                    since the beginning of the program in 1998. The Congress
                    recognized the importance of having the skill sets needed to
                    manage such a large undertaking. As such, the RRA 98
                    authorized the IRS to use Streamlined Critical Pay authority
                    for up to 40 positions so a higher level of pay could be used
                    to attract people with the needed skills. However, the IRS
                    used only 10 of the authorized positions (25 percent) for the
                    BSM effort. In FY 2002, members of the Congress
                    expressed concern that the IRS was not using these
                    positions as intended. However, in its review of the use of
                    Streamlined Critical Pay authority, the Board did not take
                    issue with the way in which the IRS allocated its critical pay
                    positions; the Board only expressed the opinion that the use
                    of Streamlined Critical Pay authority has helped provide
                    needed talent and should continue.
                    The problems with IRS modernization remain, and progress
                    is significantly behind schedule and over budget. Of the
                    4 major modernization projects that have been completed,
                    all were delayed by 3 to 14 months, and all but 1 have
                    incurred cost overruns that range from approximately

                    23
                      See Appendix VIII for a list of TIGTA reports related to the IRS BSM
                    efforts issued during the period FYs 2000 through 2003.
                                                                                 Page 23
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    $5 million to $13 million. Of 5 major projects that had not
                    been completed as of February 2004 (including the
                    Customer Account Data Engine24), all were behind schedule
                    (from 4 months to 2.5 years) and all had exceeded their
                    original cost estimates (by approximately $17 million to
                    $86 million). See Appendix VII for details of the
                    modernization projects.

                    Recommendation

                    5. The Oversight Board should make timely use of
                       independent assessments of the IRS’ modernization and
                       other programs to develop an effective oversight
                       strategy.
                    Management’s Response: The Board agreed with the need
                    to make independent assessments of the IRS’ modernization
                    and other programs to develop an effective oversight
                    strategy. The Board stated that it can and will hold the IRS
                    and appropriate executives accountable to the extent of its
                    authorities. However, the Board expressed concern about
                    the report’s portrayal of its position on funding for the BSM
                    program. The Board believed the BSM program should be
                    accomplished as quickly as possible, but at the same time it
                    believed funds should not be spent beyond the capacity of
                    the IRS and its contractor to manage the program. The
                    Board stated that its emphasis has been on the importance of
                    multiyear funding. Its request for additional funds of
                    $550 million (for FY 2003) was to ensure the multiyear
                    Information Technology Investment Fund Account did not
                    run out, so projects that crossed fiscal years did not get
                    delayed or shut down. The Board is concerned that, to this
                    day, the multiyear fund has not been restored to its original
                    intent, creating inefficiencies every time the fund
                    approaches a zero balance.
                    Office of Audit Comment: Notwithstanding the Board’s
                    assertions related to the importance of multiyear funding for
                    the BSM program, the Board’s funding requests exceeded
                    the IRS’ capacity to manage and implement the program.

                    24
                      In July 2004, CADE Release 1.1 was implemented to process the
                    most basic tax returns. At the time of our review, this subrelease was
                    scheduled for final delivery in September 2004.
                                                                                    Page 24
               The Oversight Board Has Achieved Much of Its Original Intent,
                  but There Are Opportunities for Increased Effectiveness

                                   The $1 billion recommended in the Board’s 2001 testimony
                                   (which included $450 million for FY 2002 and $550 million
                                   for FY 2003) was far more than the IRS could effectively
                                   manage. We do not believe the Board provided adequate
                                   fiscal oversight or accountability to the BSM effort. We are
                                   concerned that the Board’s focus on increased funding,
                                   rather than an effective oversight strategy early on in the
                                   process, has limited its impact in this area. As such, many
                                   of the same issues and problems are noted in the Board’s
                                   annual report year after year.
                                   For much of its history, there have been vacancies on the
Lengthy Vacancies on the
                                   IRS Oversight Board. The legislation establishing the
Oversight Board Can Negatively
                                   Board was signed into law on July 22, 1998; however, the
Affect Its Operations
                                   process to nominate and confirm all of the initial Board
                                   members took 25 months. The original Board members
                                   were confirmed on September 8, 2000.
                                   Since then, two of the original members have resigned, one
                                   in November 2001 and the other in February 2003. Two
                                   replacements have been selected to fill the remainder of
                                   those original terms, but only one has been confirmed and
                                   both terms will expire in October 2004. Two of the other
                                   original five terms expired in October 2003. The President
                                   nominated two individuals to fill those vacancies. One
                                   individual has withdrawn from consideration and the other
                                   (nominated in December 2003) was appointed on
                                   July 30, 2004; his term will expire in 2005. Table 2 shows
                                   the number of Board members (not including the IRS
                                   Commissioner or Secretary of the Treasury) and the number
                                   of vacancies since the creation of the Board.




                                                                                       Page 25
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                                         Table 2: Board Vacancies
                                                            Number of
                                Time Period                                   Vacancies
                                                          Board Members
                     January 1999* – September 2000                              All
                     September 2000 – November 2001               7               0
                     November 2001 – February 2003                6               1
                     February 2003 – June 2003                    5               2
                     June 2003 – September 2003                   6               1
                     September 2003 – June 2004                   5               2
                    * The RRA 98 required the President to submit nominations for the
                    Oversight Board to the Senate by January 22, 1999.
                    Source: IRS Oversight Board.

                    While there is generally no set industry standard as to how
                    many directors should sit on a board or how many should be
                    on each committee, lengthy vacancies make it more difficult
                    for the Oversight Board to accomplish its responsibilities
                    and limit the collective private sector experience and insight
                    these private-life members are expected to bring.
                    Additionally, the vacancies affect the Board’s committees.
                    Two of the three committees have vacancies. With some
                    Board members on more than one committee, their
                    workload is increased significantly. If the three nominations
                    currently before the Senate are not confirmed by
                    October 1, 2004, it may be difficult for the Board to
                    continue to function. At that point, there would be only
                    three private-life members serving on the Board. This
                    would not leave enough members to effectively conduct
                    committee work. In October 2005, the terms of the last
                    three original Board members will expire, and, if those three
                    positions were not filled, the Board would then have only
                    two private-life members.
                    The Board, on advice of the Department of the Treasury,
                    has concluded that a Board member may “hold over” after
                    the conclusion of his or her term until the appointment and
                    qualification of a successor. As such, one Board member
                    elected to continue serving on the Board after his original
                    term had expired. A measure included in proposed



                                                                                 Page 26
               The Oversight Board Has Achieved Much of Its Original Intent,
                  but There Are Opportunities for Increased Effectiveness

                                   legislation25 would grant an automatic extension of a Board
                                   member’s term for up to 1 year if a successor is not timely
                                   confirmed. However, it is unclear whether extensions of
                                   Board members’ terms will significantly contribute to the
                                   continuity of the Board’s operations because the Board
                                   members would have to be willing to continue to serve past
                                   their terms. Two members of the Board have indicated they
                                   will not serve past their 5-year terms. The Board expressed
                                   its concern about the lengthy process to fill vacancies in its
                                   recently issued 2004 Annual Report.
                                   A good corporate governance practice is to clearly define
Following Best Practices on
                                   where a board’s duties begin and end. This is best
Process Guidelines and Member
                                   documented in board policies. While the Oversight Board
Continuing Education Could
                                   has been functioning for the past 3 years, for much of that
Improve the Oversight Board’s
                                   time it did not have formally adopted procedures (the Board
Effectiveness
                                   refers to its procedures as “Operating Philosophies”).26 A
                                   best practice of boards in general is that they have formal
                                   procedures that govern the manner in which they conduct
                                   their oversight and document formal board decisions. As of
                                   March 2004, the Oversight Board had formally approved
                                   only one of the five procedures developed for its Human
                                   Capital Committee.27 While the statute creating the Board
                                   requires that five members be present to establish a quorum,
                                   it does not specify any additional procedures that the Board
                                   must follow.
                                   To the extent possible, the Oversight Board should define its
                                   practices in other areas, particularly where the statute
                                   creating the Board is vague. For example, the RRA 98
                                   requires the Board’s approval for any major reorganizations
                                   of the IRS. However, it is not clear what level of
                                   reorganization at the IRS would constitute a major
                                   reorganization.
                                   Shortly after his confirmation, the new Commissioner
                                   announced a plan to create two deputy commissioner
                                   positions within the IRS and to create new reporting lines of
                                   authority; however, the Board did not come to a formal

                                   25
                                      Tax Administration Good Government Act – H.R. 1528 108th Cong.
                                   § 127 (2004).
                                   26
                                      See Appendix XI for a list and the status of the Oversight Board’s
                                   Operating Philosophies.
                                   27
                                      See Appendix VI for details about the Committee.
                                                                                                 Page 27
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    resolution to approve this reorganization, which caused
                    concerns among some Board members. Based on the
                    legislative history covering the intent of this provision, we
                    believe the Commissioner’s actions were appropriate and
                    formal approval by the Board was not required.
                    Nonetheless, the uncertainty of some Board members as to
                    whether this change required its approval, as well as strong
                    Congressional concern over the Board’s acquiescence to the
                    Commissioner’s organizational changes, illustrate the need
                    for a clear policy.
                    The Board has since formulated a procedure that would
                    cover the Board’s policy on reviewing and approving any
                    major IRS reorganization. Further, after we brought our
                    concerns to the Board about the delays in adopting
                    procedures, the Board formally adopted 12 of 13 of its
                    proposed operating philosophies in July 2004.
                    Oversight Board member education
                    Corporate governance best practices also recommend
                    requiring board members to engage in continuous learning
                    about the organization they oversee. The Business
                    Roundtable Corporate Governance survey (July 2003)
                    determined that “Ninety percent of Roundtable companies
                    now encourage, require, or have in place education
                    programs for new, and in some cases all, directors.” A
                    Harvard Business Review article28 recommends giving
                    directors tasks—for example, meeting with customers,
                    suppliers, and distributors or visiting plants or stores in the
                    field—and requiring them to inform the rest of the board
                    about the company’s strategic and operational reviews as a
                    means to assimilate new members and promote continuity
                    among established members.
                    The importance of having a defined system to ensure new
                    Board members have an adequate understanding of IRS
                    operations and issues will be increased due to the significant
                    turnover of Board members within the next 2 years. While
                    the Board currently does meet with stakeholder groups and
                    attends meetings such as the IRS Tax Forums, a defined
                    system to educate and assist new members would help


                    28
                         What Makes Great Boards Great (September 2002).
                                                                            Page 28
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                    ensure the continuity of management oversight and strategic
                    direction and accelerate new members’ ability to apply their
                    expertise.

                    Recommendations

                    The Oversight Board should:
                    6. Establish guidance to specify which circumstances will
                       require a formal resolution by the Board and establish a
                       process to formally vote and publish resolutions.
                    Management’s Response: The Board agreed that
                    transparency regarding the Board’s processes and votes is
                    good where appropriate. However, it noted that publication
                    of some actions, such as the evaluation of executive
                    performance, might not be appropriate. The Board will
                    continue its practice of issuing media releases after every
                    meeting and will strive to communicate its resolutions to
                    taxpayers as fully as possible.
                    7. Institute a defined system to educate new Board
                       members on IRS operations and strategic issues.
                    Management’s Response: The Board agreed and is using
                    the experiences of its current Chairperson to develop a more
                    formal process to educate new members in Board and IRS
                    governance issues. The Board will continue to refine this
                    effort with the guidance of new members.




                                                                         Page 29
                  The Oversight Board Has Achieved Much of Its Original Intent,
                     but There Are Opportunities for Increased Effectiveness

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Internal Revenue Service (IRS)
Oversight Board’s effectiveness in fulfilling its responsibilities as required by the IRS
Restructuring and Reform Act of 1998.1 We interviewed members and staff of selected
Congressional committees or subcommittees, the cochairs of the National Commission on
Restructuring the IRS, Oversight Board members and several former Board members, the IRS
Commissioner and two former Commissioners, as well as IRS senior executives and members of
tax practitioner groups. To accomplish this objective, we:
I.      Determined whether the Oversight Board adequately fulfilled its responsibility to review
        the IRS’ plans for modernization of the tax system.
II.     Determined whether the Oversight Board fulfilled its responsibilities to review and
        approve the budget request of the IRS.
III.    Determined the Oversight Board’s involvement with the IRS’ compliance and
        enforcement actions.
IV.     Determined the Oversight Board’s involvement in the selection, evaluation, and
        compensation of IRS senior executives.
V.      Determined the resources available to the Oversight Board and how those resources are
        used to carry out the Board’s statutory responsibilities.
VI.     Evaluated the impact of the Oversight Board as perceived by the Board, the IRS, the
        Congress, and outside stakeholders.
VII.    Determined whether the Oversight Board follows private sector governance best
        practices.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).



                                                                                                             Page 30
              The Oversight Board Has Achieved Much of Its Original Intent,
                 but There Are Opportunities for Increased Effectiveness

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Kenneth E. Henderson, Senior Auditor
David P. Robben, Senior Auditor
Michael J. Della Ripa, Auditor




                                                                                      Page 31
             The Oversight Board Has Achieved Much of Its Original Intent,
                but There Are Opportunities for Increased Effectiveness

                                                                             Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
United States Senate Committee on Finance
United States Senate Committee on Governmental Affairs
United States Senate Committee on Governmental Appropriations
United States House of Representatives Committee on Appropriations
United States House of Representatives Committee on Government Reform
United States House of Representatives Committee on Ways and Means
Mr. Charles A. Lacijan, Staff Director, IRS Oversight Board




                                                                                 Page 32
                      The Oversight Board Has Achieved Much of Its Original Intent,
                         but There Are Opportunities for Increased Effectiveness

                                                                                                    Appendix IV


         Comparison of Federal Government Boards and Their Responsibilities

                                                              United States
                                Social Security                                         Internal Revenue Service
                                                             Postal Service
                                Advisory Board                                           (IRS) Oversight Board
                                                           Board of Governors
    Date Created                      1994                           1970                           1998
    Board Size                          7                             11                              9
     Private Sector                     7                              9                              7
     Government                         0                              2                              2
                           3 by the President, 2 by the                                 All by the President, with the
                                                              9 by the President,
    Member Selection       President of the Senate, 2 by                                 advice and consent of the
                                                                2 by the Board.
                            the Speaker of the House.                                              Senate.
    Quorum                              4                              6                              5
    Terms
     Chairperson                     4 years                        1 year                         2 years
     Other Members                   6 years                        9 years                        5 years
    Compensation
     Chairperson                     Varies1                       $30,000                        $50,000
     Other Members                    Varies                       $30,000                        $30,000
                                                                                         Removed at the will of the
    Removal                      Not mentioned.            Removed only for cause.
                                                                                               President.
    Meeting
                                At least quarterly.           On a regular basis.            At least quarterly.
    Requirements
    Reporting                                                                            Annual report and interim
                                 Not mentioned.                 Not mentioned.
    Requirements                                                                         reports deemed necessary.
    Review Authority
                                                              Conduct long-range
     Strategic Plan         Make recommendations.                                           Review and approve.
                                                           planning and set policies.
                                                           Direct the exercise of the
                                                                                           Review the operational
     Operating Plans        Make recommendations.            powers of the Postal
                                                                                            functions of the IRS.
                                                                    Service.




1
 Board members are compensated at the daily rate of basic pay for level IV of the Executive Schedule while
engaged in the business of the Board.
                                                                                                             Page 33
                 The Oversight Board Has Achieved Much of Its Original Intent,
                    but There Are Opportunities for Increased Effectiveness

                                                           United States
                            Social Security                                          Internal Revenue Service
                                                          Postal Service
                            Advisory Board                                            (IRS) Oversight Board
                                                        Board of Governors
                                                                                     Recommend candidates for
                                                                                      Commissioner; review the
                                                      Select Postmaster General
                                                                                       selection, evaluation, and
   Management                      None                and Deputy Postmaster
                                                                                     compensation of executives;
                                                               General.
                                                                                        and review and approve
                                                                                      reorganizations of the IRS.
                                                                                        Approve the IRS budget
                                                                                     request and submit request to
                                                                                     the Secretary of the Treasury.
                                                          Approve the budget
                                                                                       The Secretary submits the
                                                          program, including
                                                                                          budget request to the
                                                             requests for
   Budget                          None                                                President who shall submit
                                                          appropriations, and
                                                                                          such request, without
                                                         approve the operating
                                                                                        revision, to the Congress
                                                               budget.
                                                                                      together with the President’s
                                                                                     annual budget request for the
                                                                                                   IRS.
                        Make recommendations on          Represent the public        Ensure the proper treatment
   Constituent Rights
                               programs.                      interest.               of taxpayers by the IRS.
 Approval Authority
                                                       The Postmaster General
   Agency Head                     None                serves at the pleasure of                 None
                                                        the 9 Board members.
                                                        The IG is appointed by
   Agency Inspector
                                   None                and reports directly to the               None
   General (IG)
                                                         appointed Governors.
                                                      Not more than 5 of 9 from
                                                      same political party. Most
                           Major role is to make
 Other                                                   powerful of Boards                      None
                            recommendations.
                                                       analyzed and most like a
                                                           corporate board.
Source: Treasury Inspector General for Tax Administration analysis of selected Federal Government Boards.




                                                                                                        Page 34
              The Oversight Board Has Achieved Much of Its Original Intent,
                 but There Are Opportunities for Increased Effectiveness

                                                                                  Appendix V


 INTERNAL REVENUE SERVICE RESTRUCTURING AND REFORM ACT OF 1998

                                     Public Law 105-206
 General and specific responsibilities of the Internal Revenue Service Oversight Board as they
                                  appear verbatim in the Law
                         TITLE 26. INTERNAL REVENUE CODE
           SEC. 1101. INTERNAL REVENUE SERVICE OVERSIGHT BOARD
(c) GENERAL RESPONSIBILITIES-
       (1) OVERSIGHT-
             (A) IN GENERAL - The Oversight Board shall oversee the Internal Revenue
             Service in its administration, management, conduct, direction, and supervision of
             the execution and application of the internal revenue laws or related statutes and
             tax conventions to which the United States is a party.
             (B) MISSION OF IRS - As part of its oversight functions described in
             subparagraph (A), the Oversight Board shall ensure that the organization and
             operation of the Internal Revenue Service allows it to carry out its mission.
             (C) CONFIDENTIALITY - The Oversight Board shall ensure that appropriate
             confidentiality is maintained in the exercise of its duties.
       (2) EXCEPTIONS - The Oversight Board shall have no responsibilities or authority with
      respect to:
             (A) the development and formulation of Federal tax policy relating to existing or
             proposed internal revenue laws, related statutes, and tax conventions,
             (B) specific law enforcement activities of the Internal Revenue Service, including
             specific compliance activities such as examinations, collection activities, and
             criminal investigations,
             (C) specific procurement activities of the Internal Revenue Service, or
             (D) except as provided in subsection (d)(3), specific personnel actions.
(d) SPECIFIC RESPONSIBILITIES - The Oversight Board shall have the following specific
responsibilities:
      (1) STRATEGIC PLANS - To review and approve strategic plans of the Internal
      Revenue Service, including the establishment of:


                                                                                        Page 35
               The Oversight Board Has Achieved Much of Its Original Intent,
                  but There Are Opportunities for Increased Effectiveness

               (A) mission and objectives, and standards of performance relative to either, and
               (B) annual and long-range strategic plans.
       (2) OPERATIONAL PLANS - To review the operational functions of the Internal
       Revenue Service, including:
               (A) plans for modernization of the tax system,
               (B) plans for outsourcing or managed competition, and
               (C) plans for training and education.
       (3) MANAGEMENT - To:
               (A) recommend to the President candidates for appointment as the Commissioner
               of Internal Revenue and recommend to the President the removal of the
               Commissioner;
               (B) review the Commissioner’s selection, evaluation, and compensation of
               Internal Revenue Service senior executives who have program management
               responsibility over significant functions of the Internal Revenue Service; and
               (C) review and approve the Commissioner’s plans for any major reorganization of
               the Internal Revenue Service.
       (4) BUDGET - To:
               (A) review and approve the budget request of the Internal Revenue Service
               prepared by the Commissioner;
               (B) submit such budget request to the Secretary of the Treasury; and
               (C) ensure that the budget request supports the annual and long-range strategic
               plans.
       (5) TAXPAYER PROTECTION - To ensure the proper treatment of taxpayers by the
       employees of the Internal Revenue Service.
The Secretary shall submit the budget request referred to in paragraph (4)(B) for any fiscal year
to the President who shall submit such request, without revision, to Congress together with the
President’s annual budget request for the Internal Revenue Service for such fiscal year.




                                                                                         Page 36
               The Oversight Board Has Achieved Much of Its Original Intent,
                  but There Are Opportunities for Increased Effectiveness

                                                                                  Appendix VI


                       Internal Revenue Service Oversight Board
                       Committee Structure and Responsibilities

Business Transformation Committee

•   Larry Levitan (Chairperson)
•   Nancy Killefer
•   Vacancy
Responsibilities:
The Business Transformation Committee was established to fulfill the Oversight Board’s
responsibility for reviewing the Internal Revenue Service’s (IRS) plans for modernization of the
tax system. The Committee’s responsibilities include reviewing the proposed modernization
portfolio and performing periodic reviews of modernization progress and periodic reviews of the
transition to support readiness. A member of the Committee or a member of the Board’s staff
attends the Core Business Systems Executive Steering Committee meetings. In addition, the
Committee directs the preparation of the Electronic Filing Report that is submitted to the
Congress annually.
The Business Transformation Committee has also general responsibility for the Modernization
and Information Technology Services (MITS) organization performance reviews to monitor the
MITS organization’s progress in meeting its strategic and operational goals and objectives. The
Committee’s responsibilities include reviewing the MITS organization budget, performing a
periodic review of the performance of the MITS organization, and conducting an annual review
of mission assurance.
Human Capital Committee

•   Raymond Wagner (Chairperson)
•   Robert Tobias
•   Charles Kolbe
Responsibilities:
The Human Capital Committee’s responsibilities include reviews of the senior executive
performance evaluations and compensation, the critical pay program, training, outreach to
stakeholders, and the effectiveness of the Office of the National Taxpayer Advocate (NTA) in
providing protection to taxpayers.
The Committee conducts an annual review of the performance evaluations and compensation of
designated senior executives to determine whether their evaluations and compensation packages
are compatible with their personal commitments and whether the executives achieved
                                                                                       Page 37
               The Oversight Board Has Achieved Much of Its Original Intent,
                  but There Are Opportunities for Increased Effectiveness

performance levels for the organizational units they manage and overall IRS strategic goals. The
Committee is also responsible for working with the IRS Commissioner to provide advice from
the Oversight Board’s perspective to assist the IRS in filling designated senior executive
positions with qualified executives, including any proposal to use Streamlined Critical Pay
authority.
The Human Capital Committee has principal responsibility for coordinating public outreach,
which may include public meetings, nationwide IRS Tax Forums, public surveys, speaking
engagements, etc. The Committee also reviews the effectiveness of the NTA in providing
protection to all taxpayers. The Committee is responsible for bringing strategic attention to
agency-wide training and working with the IRS to identify appropriate changes, including
incorporating public and private sector best practices as it develops training programs using
modernized technology.
Performance Management Committee

•   Robert Tobias (Chairperson)
•   Raymond Wagner
•   Vacancy
Responsibilities:
The Performance Management Committee is responsible for performance reviews to monitor the
IRS’ progress in meeting its strategic and operational goals and objectives. The Committee
monitors IRS performance on a continuing basis to try to identify potential problems, successes,
and issues. At quarterly performance meetings, each IRS organization being reviewed is allotted
a specific time period within which to discuss its progress toward meeting the annual
performance targets, its successes and best practices, factors that inhibit better performance
levels, its problem areas, and the efforts to reduce the problems. At the conclusion of each
performance meeting, a summary of issues discussed and pending action items is prepared; the
action items are shared with the IRS.
The Committee currently conducts quarterly performance reviews of the four major operating
divisions (Wage and Investment, Small Business/Self-Employed, Large and Mid-Size Business,
and Tax Exempt and Government Entities), as well as the MITS organization, and biannual
reviews of the Offices of Appeals, Chief Human Capital Officer, and Agency-Wide Shared
Services.




                                                                                        Page 38
                     The Oversight Board Has Achieved Much of Its Original Intent,
                        but There Are Opportunities for Increased Effectiveness

                                                                                               Appendix VII


                        Modernization Schedule Delays and Cost Increases

Table 1 lists schedule delays and cost increases for some of the Business Systems Modernization
(BSM) projects as of February 2004.
                                     Table 1: BSM Project Delays and Cost Increases

                                                             Cost         Reported/Revised        Schedule
                         Project1                          Variance        Estimated Cost         Variance
                                                         (in thousands)      (in thousands)       (in months)

    Completed Projects

    Security and Technology Infrastructure Release 1        +$7,553             $41,287               +5

    Customer Communications 2001                             +5,310             46,420                +9

    Customer Relationship Management Exam                    -1,938              7,375                +3

    Internet Refund/Fact of Filing                          +12,923             26,432                +14

    Ongoing Projects2

    Modernized e-File Release 1                             +17,057             46,303               +4.5

    e-Services                                              +86,236             130,281               +18

    Customer Account Data Engine (CADE) Release 1           +36,760             97,905               +303

    Integrated Financial System (IFS) Release 1             +53,916             153,786              To be
                                                                                                  determined
                                                                                                    (TBD)

    Custodial Accounting Project (CAP) Release 1            +72,058             119,219              TBD
Source: Treasury Inspector General for Tax Administration report entitled, Annual Assessment of the Business
Systems Modernization Program (Reference Number 2004-230-107, dated June 2004).




1
  See Appendix X for project information.
2
  Projects ongoing as of September 30, 2003.
3
  Project schedules for the CADE, the IFS, and the CAP are currently under review.




                                                                                                      Page 39
              The Oversight Board Has Achieved Much of Its Original Intent,
                 but There Are Opportunities for Increased Effectiveness

                                                                               Appendix VIII


Internal Revenue Service Business Systems Modernization-Related Final Reports
         Issued by the Treasury Inspector General for Tax Administration
                 Information Systems Programs Business Unit in
                             Fiscal Years 2000 – 2003

Fiscal Year (FY) 2000 (2 reports)
Significant Risks Need to be Addressed to Ensure Adequate Oversight of the Systems
Modernization Effort (Reference Number 2000-20-099, dated June 2000)
Additional Actions Are Needed to Strengthen the Development and Enforcement of the
Enterprise Architecture (Reference Number 2000-20-158, dated September 2000)
FY 2001 (8 reports)
Implementation of the New Methodology for Systems Modernization Needs Increased Focus and
Support (Reference Number 2001-20-015, dated November 2000)
The Business Systems Modernization Office Has Made Solid Progress and Can Take Additional
Actions to Enhance the Chances of Long-Term Success (Reference Number 2001-20-039,
dated February 2001)
Progress in Developing the Customer Communications Project Has Been Made, But Risks to
Timely Deployment in 2001 Still Exist (Reference Number 2001-20-055, dated March 2001)
The Customer Relationship Management Examination Project Experienced Delays and
Increased Costs, But Lessons Learned Should Improve Future Modernization Projects
(Reference Number 2001-20-140, dated August 2001)
The Telecommunications Modernization Project Provided Some Benefits, But Process
Improvements Are Needed for Future Projects (Reference Number 2001-20-143,
dated August 2001)
Improvements Are Needed in the Management of the e-Services Project to Enable Timely
Progress Towards Future Goals (Reference Number 2001-20-144, dated September 2001)
Letter Report: Authoritative Guidelines and Processes Are Needed for Classifying Information
Technology Projects (Reference Number 2001-20-152, dated September 2001)
Uncertainties Facing the Customer Communications 2002 Project May Jeopardize Its Timely
Deployment (Reference Number 2001-20-179, dated September 2001)
FY 2002 (12 reports)
Modernization Project Teams Need to follow Key Systems Development Processes
(Reference Number 2002-20-025, dated November 2001)
                                                                                     Page 40
              The Oversight Board Has Achieved Much of Its Original Intent,
                 but There Are Opportunities for Increased Effectiveness

The Customer Communications Project 2001 Release Was Deployed, But Testing Processes Did
Not Ensure All Applications Were Working As Intended (Reference Number 2002-20-056,
dated March 2002)
The Business Systems Modernization Office Needs to Strengthen Its Processes for Overseeing the
Work of the PRIME Contractor (Reference Number 2002-20-059, dated March 2002)
Critical Processes and Dependencies Need to Be Addressed to Avoid Future Delays in
Deployment of the Enterprise Systems Management Project (Reference Number 2002-20-084,
dated May 2002)
Management Advisory Report: Progress Has Been Made in Establishing a Secure
Modernization Infrastructure; However, Continuing Risks Could Impact Timely Deployment of
Modernization Projects (Reference Number 2002-20-112, dated June 2002)
Processes to Effectively Manage the Development of the Custodial Accounting Project Are
Improving (Reference Number 2002-20-121, dated June 2002)
Management Advisory Report: Most Taxpayer Communication Enhancements Planned
for 2002 Will Be Delivered, Although Some Are Later Than Originally Expected
(Reference Number 2002-20-122, dated July 2002)
The Latest Update to the Enterprise Architecture Improves on Previous Versions, But Processes
to Develop Future Updates Could Be Improved (Reference Number 2002-20-124,
dated July 2002)
Management Advisory Report: Comprehensive Measures for Interim Business Systems
Modernization Status Reporting Are Needed (Reference Number 2002-20-128, dated July 2002)
Management Advisory Report: Progress Has Been Made in Developing Transition to Support
Guidance for Modernization Projects (Reference Number 2002-20-146, dated August 2002)
Additional Improvements Are Needed in the Application of Performance-Based
Contracting to Business Systems Modernization Projects (Reference Number 2002-20-170,
dated September 2002)
Annual Assessment of the Internal Revenue Service’s Business Systems Modernization Program
(Reference Number 2002-20-189, dated September 2002)
FY 2003 (10 reports)
Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance
(Reference Number 2003-20-007, dated October 2002)
Improvements in the Customer Account Data Engine Pilot Plan Need to Be Considered to Help
Ensure the Pilot’s Success (Reference Number 2003-20-018, dated November 2002)
Enhancements to the Internet Refund Project Need to Be Completed to Ensure Planned Benefits
to Taxpayers Are Realized (Reference Number 2003-20-053, dated February 2003)

                                                                                     Page 41
              The Oversight Board Has Achieved Much of Its Original Intent,
                 but There Are Opportunities for Increased Effectiveness

The Business Systems Modernization Quality Assurance Function Has Established a Solid Set of
Policies and Procedures That Can Be Further Enhanced (Reference Number 2003-20-067,
dated February 2003)
Adhering to Established Development Guidelines Will Help to Ensure the Customer Account
Data Engine Meets Expectations (Reference Number 2003-20-089, dated March 2003)
Security Testing and Certification of the Modernized Infrastructure Needs to Be Strengthened
(Reference Number 2003-20-127, dated June 2003)
Improvements to the Modernized Infrastructure Are Needed to Support the Deployment of
Business Systems Modernization Projects (Reference Number 2003-20-161, dated August 2003)
Testing Practices for Business Systems Modernization Projects Need Improvement
(Reference Number 2003-20-178, dated September 2003)
Annual Assessment of the Business Systems Modernization Program (Reference
Number 2003-20-208, dated September 2003)
The Cost and Schedule Estimation Process for the Business Systems Modernization Program
Has Been Improved, but Additional Actions Should Be Taken (Reference Number 2003-20-219,
dated September 2003)




                                                                                      Page 42
            The Oversight Board Has Achieved Much of Its Original Intent,
               but There Are Opportunities for Increased Effectiveness

                                                                             Appendix IX


          Selected Treasury Inspector General for Tax Administration
             Business Systems Modernization Recommendations

                                                             Dates of Treasury Inspector
           Principal Business Systems Modernization                General for Tax
Number
               (BSM)-Related Recommendation                   Administration (TIGTA)
                                                                 Recommendations
  1      Harvest Internal Revenue Service business rules.   March 2003
  2      Institutionalize system engineering.               March 2003
                                                            June 2000
                                                            March 2001
                                                            November 2001
  3      Institutionalize management discipline.            March 2002
                                                            May 2002
                                                            August 2003
                                                            September 2003
                                                            November 2000
                                                            November 2001
         Enforce compliance for requirements definition
  4                                                         March 2002
         and program management processes.
                                                            May 2002
                                                            June 2003
  5      Bolster broadly defined skill areas/personnel.     November 2000
         Strengthen BSM program management with
  6                                                         June 2000
         experienced project managers.
         Balance the scope of the modernization portfolio   September 2002
  7
         with IRS capacity.                                 September 2003
         Better allocate responsibility for certain BSM
  8      program management functions (budget, audit        June 2000
         personnel, contracting, etc.).
  9      Implement a “fixed-price” contract policy.         September 2002
                                                            March 2001
         Use more realistic assumptions for testing
  10                                                        November 2001
         estimates/plans/schedules.
                                                            March 2002

                                                                                 Page 43
                 The Oversight Board Has Achieved Much of Its Original Intent,
                    but There Are Opportunities for Increased Effectiveness

                                                                          Dates of Treasury Inspector
                Principal Business Systems Modernization                        General for Tax
 Number
                    (BSM)-Related Recommendation                           Administration (TIGTA)
                                                                              Recommendations
             Establish a rigorous process for requests for
    11                                                                  August 2003
             information services/change requests.
    12       Make diagnostic tools (e.g., dashboard) work.              June 2000
             Streamline Modernization Information
    13       Technology Services-wide Government process                June 2000
             for entire information technology portfolio.
             Request spend plan changes timely – eliminate
    14                                                                  February 2001
             funding “emergencies.”
                                                                        February 2001
             Employ performance-based acquisition more
    15                                                                  March 2002
             broadly.
                                                                        September 2002
Source: TIGTA report entitled, Annual Assessment of the Business Systems Modernization Program (Reference
Number 2004-230-107, dated June 2004).




                                                                                                   Page 44
                    The Oversight Board Has Achieved Much of Its Original Intent,
                       but There Are Opportunities for Increased Effectiveness

                                                                                       Appendix X


                  Business Systems Modernization Projects and Descriptions

The following are brief descriptions of the projects listed in Appendix VII.
Security and Technology Infrastructure Release (STIR) – The STIR project is designed to
provide a secure technical infrastructure to support and enable the delivery of the Internal
Revenue Service’s (IRS) modernized business systems.1
Customer Communications (CC) – The CC project has improved customer service by
increasing the capacity of the toll-free telephone system and providing the ability to route
taxpayers’ calls to the appropriate IRS employees.
Customer Relationship Management (CRM) Exam – The CRM Exam project provides a
commercial off-the-shelf software solution to Large and Mid-Size Business
Division revenue agents that will allow them to accurately compute complex corporate
transactions.
Internet Refund/Fact of Filing (IRFOF) – The IRFOF project improves customer self-service
by providing instant refund status information and instructions for resolving refund problems to
taxpayers with Internet access.
Modernized e-File (MeF) – The MeF project develops the modernized web-based platform for
filing approximately 330 IRS forms electronically, beginning with the U.S. Corporation Income
Tax Return (Form 1120), U.S. Income Tax Return for an S Corporation (Form 1120S), and
Return of Organization Exempt From Income Tax (Form 990). The project serves to streamline
filing processes and reduce the costs associated with a paper-based process.
e-Services – The e-Services project provides a set of web-based business products as incentives
to third parties to increase electronic filing, in addition to providing electronic customer account
management capabilities to all businesses, individuals, and other customers.
Customer Account Data Engine (CADE) – The CADE is the foundation for managing
taxpayer accounts in the IRS’ modernization plan. It will consist of databases and related
applications that will replace the IRS’ existing Master File processing systems and will include
applications for daily posting, settlement, maintenance, refund processing, and issue detection
for taxpayer tax account and return data.
Integrated Financial System (IFS) – The IFS is intended to address administrative financial
management weaknesses. The first release of the IFS will include the Accounts Payable,
Accounts Receivable, General Ledger, Budget Execution, Cost Management, and Financial



1
    The STIR is now a part of the Infrastructure Shared Services program.
                                                                                           Page 45
                  The Oversight Board Has Achieved Much of Its Original Intent,
                     but There Are Opportunities for Increased Effectiveness

Reporting activities. A future IFS release will be needed to fully resolve all administrative
financial management weaknesses.
Custodial Accounting Project (CAP) – The CAP will be a single, integrated data repository of
taxpayer account information, integrated with the general ledger2 and accessible for management
analysis and reporting. The first release of the CAP will extract taxpayer account data from the
Individual Master File (IMF) for the Taxpayer Account Subledger.3




2
  A general ledger is a set of accounts used to summarize an organization’s financial transactions by transaction type
(e.g., cash receipts, accounts receivable, or rental expenses).
3
  The IMF is the IRS database that maintains transactions or records of individual tax accounts. The Taxpayer
Account Subledger will be an integrated data repository of taxpayer account information containing detailed
taxpayer account history and unpaid assessment information.




                                                                                                           Page 46
                The Oversight Board Has Achieved Much of Its Original Intent,
                   but There Are Opportunities for Increased Effectiveness

                                                                                            Appendix XI


                 Status of the Oversight Board’s Operating Philosophies


                                                                                    Status of
                        Operating Philosophy
                                                                               Operating Philosophy

 Internal Revenue Service (IRS) Oversight Board
 Operating Philosophies (Full Board)
     Administration Operations                                             Adopted in July 2004
     Annual Budget Review and Approval                                     Adopted in July 2004
     Communications                                                        Adopted in July 2004
     Commissioner Nomination and Removal Recommendation                    Adopted in July 2004


         Human Capital Committee Operating Philosophies
               Stakeholder Outreach                                        Adopted in July 2004
               Oversight of IRS Senior Executives                          Adopted by Committee in
                                                                           October 2003
               Major IRS Reorganization Review and Approval                Draft
               Oversight of Training and Education                         Adopted in July 2004
               Oversight of the Office of the National Taxpayer Advocate   Adopted in July 2004


         Performance Management Committee Operating Philosophies
               Performance Review                                          Adopted in July 2004
               Strategic and Operating Plan Review and Approval*           Adopted in July 2004


         Business Transformation Committee Operating Philosophies
               Modernization Portfolio Review                              Adopted in July 2004
               Modernization and Information Technology Services           Adopted in July 2004
               Organization Performance Review
* Strategic and Operating Plan Review and Approval is being moved from the Performance Management
Committee to the full Board.
Source: IRS Oversight Board.



                                                                                                    Page 47
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness

                                                            Appendix XII


      Management’s Response to the Draft Report




                                                                Page 48
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 49
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 50
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 51
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 52
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 53
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 54
The Oversight Board Has Achieved Much of Its Original Intent,
   but There Are Opportunities for Increased Effectiveness




                                                                Page 55
